Summary of Credit Terms
Interest Rates and
Interest Charges
Annual Percentage
Rate (APR) for
Purchases

BMO Harris Bank
Platinum Mastercard®

0% introductory APR for 15

BMO Harris Bank
Platinum Rewards Mastercard®

BMO Harris Bank
Cash Back Mastercard®

14.24% 18.24% 20.24% 22.24%

,
or
based on
,
months from account opening date. your creditworthiness. This APR will vary with the market based on
After that, your APR will be
the Prime Rate.
,
,

12.24% 16.24%
18.24% or 20.24%

based on your creditworthiness.
This APR will vary with the market
based on the Prime Rate.

APR for Balance
Transfers

0% introductory APR for 15 months
from date of first transfer when
transfers are completed within 90
days from date of account opening.
After that, your APR will be 12.24%,
16.24%, 18.24% or 20.24% based
on your creditworthiness. This APR
will vary with the market based on
the Prime Rate.

0% introductory APR for 12 months from date of first transfer when
transfers are completed within 90 days from date of account opening.
After that, your APR will be 14.24%, 18.24%, 20.24% or 22.24%
based on your credit worthiness. This APR will vary with the market
based on the Prime Rate.

APR for Cash Advances 27.24% This APR will vary with the market based on the Prime Rate.
How to Avoid
Your due date is at least 21 days after the close of each billing cycle. We will not charge you any interest on
Paying Interest on
purchases if you pay your entire balance by the due date each month. We will begin charging interest on
Purchases
cash advances and balance transfers on the transaction date.
Minimum Interest
If you are charged interest, the charge will be no less than $1.00.
Charge
To learn more about factors to consider when applying for or using a credit card, visit the website of
For Credit Card Tips
from the Consumer the Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore.
Financial Protection
Bureau
Fees
BMO Harris Bank
BMO Harris Bank
BMO Harris Bank
Platinum Mastercard®
Platinum Rewards Mastercard®
Cash Back Mastercard®
Annual Fee
None
None
None
Transaction Fees
• Balance Transfer
• Either $10 or 4% of the amount of each balance transfer, whichever is greater.
• Cash Advance
• Either $10 or 5% of the amount of each cash advance, whichever is greater.
•	Foreign Transaction • 3% of each transaction in U.S. dollars.
Penalty Fees
• Late Payment
• Up to $39
• Returned Payment • Up to $39
How We Will Calculate Your Balance: We use a method called “average daily balance (including new transactions).” See your Credit Card
Cardholder Agreement for more details.
Loss of Introductory APR: We may end your introductory APR and apply the standard APR if you make a late payment.
Penalty Fees: A single violation of each type will not exceed $29. However, if another violation of the same type occurs within six billing cycles,
we will charge up to the maximum fee in the table above. The Late Payment and Returned Payment fees will not exceed the related Minimum
Payment Due.
Promotional/Introductory Rates and Your Grace Period: If you take advantage of an offer with an introductory or promotional APR, we will
charge you interest on new Purchases, unless your new Purchases have a 0% APR, or you pay your Account balance, including any Balance
Transfers and Cash Advances, in full each month by your payment due date.
BMO Harris Bank N.A. is the issuer of BMO Harris credit cards.
NOTICE TO MARRIED WISCONSIN RESIDENTS: No provision of a marital property agreement, unilateral statement or court decree adversely affects our rights unless we get a copy of the agreement,
statement or decree before we grant you credit. You agree that any credit granted will be used in the interest of your marriage or family. State law may require us to give notice of this credit card account
to your spouse.
OHIO RESIDENTS: The Ohio laws against discrimination require that all creditors make credit equally available to all credit worthy customers, and that credit reporting agencies maintain separate credit
histories on each individual upon request. The Ohio civil rights commission administers compliance with this law.
NEW YORK RESIDENTS: New York residents may contact the New York State Department of Financial Services by telephone or visit its website for free information on comparative credit card rates, fees
and grace periods. New York State Department of Financial Services: 1-800-342-3736 or http://www.dfs.ny.gov.
IMPORTANT INFORMATION ABOUT PROCEDURES FOR OPENING A NEW ACCOUNT: To help the government fight the funding of terrorism and money laundering activities, Federal law requires all
financial institutions to obtain, verify and record information that identifies each person who opens an account. What this means for you: When you open an account, we will ask for your name, address,
date of birth and other information that will allow us to identify you. We may also ask to see your driver’s license or other identifying documents.

Mastercard® is a registered trademark of Mastercard International Incorporated. Banking products and services are provided by BMO Harris Bank N.A. and are subject to bank
and credit approval. Member FDIC. © 2021 BMO Harris Bank N.A. All Rights Reserved. (04/01/21)

bmoharris.com

